CERTIFICATE OF SERVICE
Undersigned counsel certifies that on this date, the 20th date of May, 2021, pursuant to
Supreme Court Rules 29.3 and 29.4, the Brief in Response and the Appendix was served on each
party to the above proceeding, or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing these documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served as as follows:
Blythe Taplin
The Promise of Justice Initiative
1024 Elysian Fields Avenue
New Orleans, LA 70117
(504) 529-5955
Counsel of Record for Petitioner Joseph M. Bryant
Jeff Landry
Attorney General
Elizabeth Baker Murrill*
Solicitor General,
*Counsel of Record
Louisiana Department of Justice
P. O. Box 94005
Baton Rouge, LA 70804-9005
(225) 326-6766
murrille@ag.louisiana.gov
Respectfully submitted,
s/ James E. Stewart, Sr.
James E. Stewart, Sr.
District Attorney for Caddo Parish
Counsel of Record
Caddo Parish District Attorney’s Office
501 Texas Street, 5th Floor
Shreveport, LA 71101
(318) 226-6955
jstewart@caddoda.com

1

